U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




            Office of the Secretary

          Improvements Are Needed
          for Effective Web Security
                        Management

                Final Report No. OIG-12-002-A
                             October 21, 2011




             FOR PUBLIC RELEASE




                Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




October 21,2011

MEMORANDUM FOR:                Simon Szylanan, Chief Infonnation Officer


FROM:                          Allen Crawley     .~ ~
                               Assistant Inspector General for Systems Acquisi
                               and IT Security

SUBJECT:                       Improvements Are Needed For Effective
                               Web Security Management
                               Final Report No. OIG-12-002-A

Attached is our final report for the audit of the Department's web applications security. Our audit
objective was to detennine whether the Department's web applications are properly secured to
minimize the risk of cyber attacks. We reviewed the security of 15 public-facing web
applications from eight operating units: BEA, BIS, Census, NIST, NOAA, NTIA, NTIS, and
USPTO.
We found that these web applications are not properly secured to minimize the risk of cyber
attacks. The majority ofthese web applications have well-known website vulnerabilities,
misconfigured back-end databases, and outdated software that support them. Identified
vulnerabilities resulted from inadequate software development practices, improper software
configuration, and failure to install system updates in a timely manner.
In this final report, we have summarized the Department's response to our draft report and
included the fonnal response as an appendix. We will post this report on the OIG website
pursuant to section 8L of the Inspector General Act of 1978, as amended.
Under Department Administrative Order 213-5, you have 60 calendar days from the date of this
memorandum to submit an audit action plan to us. The plan should outline the actions you
propose to take to address each recommendation.
We appreciate the cooperation and courtesies extended to us by your staff as well as operating
units' staff during our audit. Please direct any inquiries regarding this report to me at (202) 482-
1855 or Dr. Ping Sun, Director, IT Security, at (202) 482-6121, and refer to the report title in all
correspondence.
Attachment
cc:    Dr. Steve Landefeld, Director, Bureau of Economic Analysis
       Eric L. Hirschhorn, Under Secretary for Industry and Security
       Dr. Robert M. Groves, Director, U.S. Census Bureau
       Dr. Patrick Gallagher, Director, National Institute of Standards and Technology
       Dr. Jane Lubchenco, Administrator, National Oceanic and Atmospheric Administration
Lawrence E. Strickling, Administrator, National Telecommunications and Information
 Administration
Bruce Borzino, Director of the National Technical Information Service
David Kappos, Director of the u.S. Patent and Trademark Office
Earl Neal, Director, Office of IT Security, Infrastructure and Technology
Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                    Report In Brief
                                            U.S. Department of Commerce Office of Inspector General
                                                                    October 21, 2011



Why We Did This Review                      Improvements Are Needed for Effective Web Security
The Federal Information Security            Management (OIG-12-002-A)
Management Act of 2002 requires
agencies to secure systems
through the use of cost-effective
management, operational, and
technical controls. In addition, the        What We Found
Department’s IT Security policy
reinforces these requirements.          Our assessment identified significant vulnerabilities resulting from inadequate software develop-
Accordingly, this report examines
                                        ment practices, improper software configuration, and failure to install system updates in a timely
whether the Department’s web ap-
plications are properly secured to
                                        manner. We found critical vulnerabilities in 12 of 15 (or 80 percent of) web applications we
minimize the risk of cyber attacks.     reviewed. The majority of web applications have well-known website vulnerabilities, misconfig-
                                        ured back-end databases, and outdated software that support them. Specifically, we found:
                                        •    Websites vulnerable to known weaknesses, potentially allowing compromise of the data
                                             stored on the application and users’ computers;
                                        •    Back-end databases not properly configured, potentially granting an attacker access to
Background                                   sensitive data; and
In recent years, the federal gov-       •    Web applications residing on unsecure software, increasing the risk of being compromised.
ernment and the Department in
particular have taken advantage         Combined, these security weaknesses put both web applications and users’ computers at greater
of Internet-based technologies to       risk of compromise, resulting in disruption of services or unauthorized disclosure of sensitive
provide a wide range of essential       information.
information to the public. The
Internet has become central to the
Department’s mission to promote
growth and retool the economy
for sustained U.S. leadership in
the 21st century. As this trend con-        What We Recommended
tinues, the Department inevitably
faces greater cybersecurity risks.      We recommend that the Department’s Chief Information Officer work with operating unit senior
Compromised websites could              management to:
aid intrusions into organizations’
internal systems and networks.
                                        •    Ensure that operating units take corrective action to mitigate vulnerabilities we found
Therefore, it is essential to config-        during our vulnerability scan assessments;
ure and maintain web applications       •    Expand the Department’s vulnerability scanning practice to include application-level as-
properly to protect the confidenti-          sessments, such as database and website scans; and
ality, integrity, and availability of
information supporting the Depart-      •    Utilize security best practices for publicly accessible web applications, such as users’ input
ment’s mission.                              validation, to ensure that only legitimate information is accepted.
U.S. Department of Commerce                                                                                                       Final Report
Office of Inspector General                                                                                                   October 21, 2011


                                                                  Contents


Introduction ..................................................................................................................................... 1 
Findings and Recommendations ..................................................................................................... 3 
   I.        The Department’s Web Applications Have Significant Security Weaknesses That Put
             Them at Risk of Successful Cyber Attacks......................................................................... 3 
         A.  Websites Are Vulnerable to Known Weaknesses, Potentially Allowing Compromise of
             the Data Stored on the Application and Users’ Computers............................................... 3 
         B.  Back-End Databases Are Not Properly Configured, Potentially Granting an Attacker
             Access to Sensitive Data ................................................................................................... 3 
         C.  Web Applications Reside on Unsecure Software, Increasing the Risk of Being
             Compromised .................................................................................................................... 4 
   II.  Recommendations ............................................................................................................... 6 
Summary of Agency Comments and OIG Response...................................................................... 7 
Appendix A: Objective, Scope, and Methodology ......................................................................... 8 
Appendix B: Responses to OIG Draft Report .............................................................................. 10 
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                            October 21, 2011


                                            Introduction
In recent years, the federal government and the Department of Commerce in particular have
taken advantage of Internet-based technologies, such as web applications, to provide a wide
range of essential technical, economic, social, and environmental information to the public. In
addition, the Internet has become central to the Department’s mission to promote growth and
retool the economy for sustained U.S. leadership in the 21st century. As this trend continues, the
Department inevitably faces greater cybersecurity risks over the Internet—where attacks on
commerce, vital business sectors, and government agencies have grown exponentially. Recently,
two hacker groups have declared war on any government or agency website, attacking major
government sites such as those hosted by the U.S. Senate and the Central Intelligence Agency. 1
Public-facing web applications have additional security risks due to limited network boundary
protection. A typical web application consists of:

    •   a website, which is the front-end interface for users to interact with the application via a
        web browser;
    •   a back-end database, which stores the application data; and
    •   supporting server infrastructure, which hosts the website and database (see figure 1).
Compromised websites could serve as an entry point for intrusions into organizations’ internal
systems and networks. Therefore, it is essential to configure and maintain these applications
properly to protect the confidentiality, integrity, and availability of information supporting the
Department’s mission.
               Figure 1. Major Components of a Typical Web Application




                   Source: OIG



1
 McCaney, K. June 20, 2011. LulzSec, Anonymous Declare War on Government Websites. Government Computer
News.


                                                  1
U.S. Department of Commerce                                                                       Final Report
Office of Inspector General                                                                   October 21, 2011


The Federal Information Security Management Act of 2002 (FISMA) requires agencies to secure
systems through the use of cost-effective management, operational, and technical controls. The
goal is to provide adequate security commensurate with the risk and magnitude of the harm
resulting from the unauthorized access, use, disclosure, disruption, modification, or destruction
of information collected or maintained by or on behalf of an agency. In addition, the
Department’s IT Security policy reinforces these requirements. 2 Accordingly, the objective of
this performance audit is to determine whether the Department's web applications are properly
secured to minimize the risk of cyber attacks.
We assessed a targeted sample of 15 public-facing web applications selected from 8 operating
units (OUs) that support the Department’s mission. Five of the selected applications generated
annual revenue of over $245 million in fiscal year (FY) 2010 through online sales of goods,
services, and permits. The remaining 10 applications supported export control activities,
frequency spectrum management, satellite-aided search and rescue, and various mandatory
business surveys.
Using commercial software tools, we conducted comprehensive vulnerability assessments on the
selected websites, back-end databases, and underlying server infrastructure to evaluate their
security posture. We tested those components externally from the Internet and internally from the
OUs’ networks for known security weaknesses. As a result, we found that these web applications
are not properly secured to minimize the risk of cyber attacks. Our assessment identified
significant vulnerabilities that resulted from inadequate software development practices,
improper software configuration, and failure to install system updates in a timely manner.
We have detailed the objective, scope, and methodology of our audit in Appendix A.




2
  The Department’s Information Technology Security Program Policy (ITSPP) specifies the security controls
required to be implemented on the Department’s information systems as well as addressing FISMA requirements.


                                                      2
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                       October 21, 2011


                                   Findings and Recommendations
I.    The Department’s Web Applications Have Significant Security Weaknesses That Put
      Them at Risk of Successful Cyber Attacks
Our security assessment identified various vulnerabilities in all 15 web applications we
reviewed. Particularly, we found critical vulnerabilities 3 in 12 of 15 (80 percent) web
applications. The majority of web applications have well-known website vulnerabilities,
misconfigured back-end databases, and outdated software that support them. Combined security
weaknesses can put both web applications and users’ computers at a greater risk of compromise,
resulting in disruption of services or unauthorized disclosure of sensitive information.
     A. Websites Are Vulnerable to Known Weaknesses, Potentially Allowing Compromise of
        the Data Stored on the Application and Users’ Computers
Eleven of the 15 (73 percent) applications contained vulnerabilities known as cross-site scripting
(XSS) and structured query language (SQL) injection. Often, web users are asked to submit
information such as their name, address, or credit card numbers via forms (referred to as web
forms) on the web application. XSS vulnerabilities can allow an attacker to inject malicious code
into a web application, by using the web forms, and then execute the malicious code on a user’s
computer when the user is tricked into accessing the vulnerable site. Affected applications can be
used to launch attacks on users’ computers—causing, at a minimum, embarrassment and
diminishing public trust in the Department. Often such attacks can result in hackers gaining
credentials (username and password) to the web application itself, thus compromising the
confidentiality, integrity, and availability of the data residing on the application.
SQL injection allows an attacker to bypass the security controls of the front-end website and
extract, modify, or destroy the data by issuing direct commands to the back-end database via web
forms. This type of critical security weakness seriously undermines the confidentiality, integrity,
and availability of the data residing on the application, specifically on the back-end database. We
found that one web application, which collects credit card information, is vulnerable to SQL
injection.
These vulnerabilities exist because a user’s input into a web form is not validated to eliminate
potentially embedded malicious code before being accepted by a web application. Proper
software programming practices should be implemented while developing web applications to
ensure that users can submit only legitimate input via web forms.
     B. Back-End Databases Are Not Properly Configured, Potentially Granting an Attacker
        Access to Sensitive Data
The Department’s security policy requires the use of passwords to support authentication for its
information systems and applications. 4 In addition, the policy establishes the requirements for a
strong password such as the number and type of characters that users should employ.


3
  Critical vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
remote execution of malicious commands.
4
  Commerce Interim Technical Requirements 009: Password Requirements


                                                         3
U.S. Department of Commerce                                                                       Final Report
Office of Inspector General                                                                   October 21, 2011


Seven of the 15 (47 percent) applications assessed are not compliant with password
requirements. Specifically, back-end database accounts were configured to have no passwords
for authentication or weak passwords (such as common dictionary words or passwords that are
the same as user login name). We found three instances of accounts associated with the weak
password had database administrator privileges. This security flaw put data stored on those
databases at a greater risk of unauthorized disclosure, alteration, or destruction. For example, one
web application supporting search and rescue operations had a weak password that allowed full
access to the sensitive data stored on the database. The integrity of this data is extremely
important, and any unauthorized alteration or destruction could seriously undermine search and
rescue activities, thus placing human life at risk.
We also discovered that 5 of the 15 (33 percent) web applications allow excessive access
privileges on back-end databases. Such excessive privileges can allow any user to obtain
sensitive system information such as other users’ passwords. These flaws, when combined with
other identified vulnerabilities, can serve as leverage for further cyber attacks.
    C. Web Applications Reside on Unsecure Software, Increasing the Risk of Being
       Compromised
The Department’s security policy, encompassing minimum security requirements for federal
systems and the National Institute of Standards and Technology Recommended Security
Controls for Federal Information Systems, requires by reference the identification, reporting, and
correcting of software flaws that result in potential security vulnerabilities. 5 These requirements
also include the mandate that newly released security patches, service packs, and “hot fixes”
must be promptly installed. Our assessment identified that 11 of 15 (73 percent) applications
reside on unsecure operating systems, thus putting them at risk of being compromised.
Specifically, we found that operating systems, which host websites and back-end databases, are
not being updated in a timely manner. Because of that, these applications are subject to multiple
security flaws. In addition, three applications reside on operating systems that are no longer
supported by the manufacturers. This means that there are no security patches or updates
available, and the manufacturers are less likely to investigate and report new vulnerabilities.
Operating systems are the foundation for web applications. When multiple security
vulnerabilities coexist with outdated operating systems, the applications become more vulnerable
to cyber attacks.
Table 1 presents a summary of each OU’s critical vulnerabilities discussed in this report. The
identified security weaknesses are primarily caused by inadequate software development
practices, improper configuration of software products (particularly databases), and failure to
install system updates in a timely manner.
In addition, vulnerability assessment activities within the Department do not consistently cover
websites and databases. The Department’s security policy requires OUs to conduct vulnerability
scanning (automated detection of software flaws and malicious code in system components)
quarterly or when significant new vulnerabilities potentially affecting the system are identified

5
 Flaw remediation is required control SI-2 in National Institute of Standards and Technology, August 2009.
Recommended Security Controls for Federal Information Systems, NIST Special Publication 800-53, Revision 3.
Gaithersburg, MD: NIST, D-7.


                                                      4
U.S. Department of Commerce                                                                                            Final Report
Office of Inspector General                                                                                        October 21, 2011


and reported (for example, in a bulletin from a software manufacturer). However, beyond that
requirement, the policy includes no specification of the scope and methodology of those
vulnerability assessments. We found that this has resulted in inconsistent practices of
vulnerability scanning across the Department. For example, only eight of the 15 (53 percent)
applications have their front-end websites and back-end databases scanned using an application-
specific scanning tool. Website scanning can identify critical application vulnerabilities such as
cross-site scripting and SQL injection. Database scanning can check for inadequate security
configuration settings on databases, such as weak passwords or excessive privileges. By
expanding scanning coverage on websites and databases using application-specific scanning
tools, the OUs will be able to identify vulnerabilities on all components of web applications.

                 Table 1. Identified Critical Vulnerabilities by Operating Unit
                           Website                     Back-End Database                Server Operating System
                           Vulnerabilities             Vulnerability                    Vulnerabilities
                                         Cross-                      Excessive                           Unpatched/
               OU          SQL           Site          Weak          Access             Unsupported      Outdated System
                           Injection     Scripting     Passwords Privilege              OS               Software
        BEA                                  X              X                X




                                                                                                      
        BIS                                                                                                         

        Census                               X            N/A*             N/A*                X                  X 

        NIST                                 X                               X                                    X 

        NOAA/NESDIS                          X              X                X                 X                  X 

        NOAA/NMFS                                         N/A*             N/A*                                     

        NOAA/NMFS              X             X              X                                                     X 

        NOAA/NOS                                          N/A*             N/A*                                     

        NTIA                                 X                               X                                    X 

        NTIS                                 X              X                X                 X                  X 

        USPTO                                                                                                     X 

        USPTO                                X              X                                                     X 

        USPTO                                X              X                                                     X 

        USPTO                                X                                                                    X 

                                             X              X                                                     X 
        USPTO
        * Databases were not scanned due to the limited capability of vulnerability assessment software tools. 
        Source: OIG 



During our fieldwork, we shared our preliminary assessment results with OU staff, who are
currently taking corrective actions to remediate the vulnerabilities identified. OUs remediated the
most critical issues, such as weak or no passwords on back-end databases, immediately after our
discovery.




                                                                  5
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                           October 21, 2011


II.    Recommendations
We recommend that the Department’s Chief Information Officer work with operating unit senior
management to:
      1. Ensure that operating units take corrective action as necessary to mitigate vulnerabilities
         we found during our vulnerability scan assessments;
      2. Expand the Department’s vulnerability scanning practice to include application-level
         assessments, such as database and website scans; and
      3. Utilize security best practices for publicly accessible web applications, such as users’
         input validation to ensure that only legitimate information is accepted, as recommended
         by NIST Special Publication 800-44, Guidelines on Securing Public Web Servers Version
         2 (September 2007).




                                                   6
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                         October 21, 2011


                     Summary of Agency Comments and OIG Response
We reviewed the Department’s official response to our draft report dated September 21, 2011. In
its response, the Department concurred with our findings and recommendations—while noting
its effort to increase its IT security posture in FY 2011, including a deployment of an enterprise-
wide vulnerability management capability.
The Department also provided technical comments separately, which we addressed in the report
where appropriate.




                                                 7
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                           October 21, 2011


                       Appendix A: Objective, Scope, and Methodology
Our objective was to determine whether the Department's web applications are properly secured
to minimize the risk of cyber attacks. This report describes key vulnerabilities that require senior
management’s attention. In general, we do not detail our findings for the individual applications
reviewed unless such is necessary for clarity.
The Department’s Office of Chief Information Officer provided us with an inventory of over 800
web applications. Our assessment focused on a targeted sample of 15 web applications from the
following departmental operating units/subunits (See table I).
              Table I. Applications Selected for Technical Assessment a

                                                                      Number
                    Operating Unit                                    of Web
                                                                      Applications

                    Bureau of Economic Analysis (BEA)                        1

                    Bureau of Industry and Security (BIS)                    1

                    U.S. Census Bureau (Census)                              1
                    National Institute of Standards and Technology
                                                                             1
                    (NIST)

                    National Oceanic and Atmospheric
                    Administration (NOAA)

                    National Environmental Satellite, Data, and
                    Information Service (NESDIS)                             4

                    National Marine Fisheries Service (NMFS)

                    National Ocean Service (NOS)


                    National Telecommunications and Information              1
                    Administration (NTIA)


                    National Technical Information Service (NTIS)            1


                    U.S. Patent and Trademark Office (USPTO)                 5

                    Source: OIG
                    a
                      For security purposes, OIG will not disclose specific details
                    about the types of web applications assessed.




                                                    8
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                          October 21, 2011


We selected these public-facing web applications based on their business functions, which
potentially store or process sensitive, privacy or mission-critical data such as credit cards
numbers and business or personal information.
Using a combination of automated software tools and manual review, we performed internal
(e.g., bypassing network boundary protection, such as firewalls) and external vulnerability
assessments on 15 selected public facing web applications, focusing on their front-end website
interfaces, the back-end databases, and supporting servers. Due to the limited capability of
vulnerability assessment software tools, we were not able to scan back-end databases associated
with three web applications. For two other web applications, we limited our scans to their test
environment systems due to the concern that such activity can disrupt the service. We validated
that the test systems had very similar configurations to the production systems. We shared our
assessment results with web application owners, and sought their feedback to validate identified
vulnerabilities to eliminate false positives. We also interviewed operating unit staff as needed to
assess the effectiveness of the Department’s security practices.
We conducted our field work from January to August 2011 at Commerce headquarters, various
field offices, and contractor hosting facilities in the District of Columbia, Florida, Maryland, and
Virginia.
We performed this audit under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions.




                                                 9
U.S. Department of Commerce                                                                                              Final Report
Office of Inspector General                                                                                          October 21, 2011


                              Appendix B: Response to OIG Draft Report


                                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                                    Offal of the Chief InfOf'm.tion Office..
                                                                    Washington. D.C. 20230

                                                                           OCT 1 1 2011




             MEMORANDUM FOR:                Allen Crawley
                                            Assistant Inspector General for Systems Acquisition and
                                            IT Security

             THROUGH:                       Earl B. Neal     Z};;f;·Ic......D
                                            Director. Office of IT Security,
                                            Infrastructure and Technology

             FROM:                          Simon Szykman             ~ A. L
                                            Chief Infannalion Officer  ... ~

             SUBJECT:                        Department's Comments in Response to the FYll Draft Report
                                            Improvements Are Needed/or Efficlive Web Security
                                            Management.


             This memorandum serves as the Dcpanmcnt's response to the Commerce (nspector General's
             Draft FY 11 Report Improvements 'Ire Neededjor Ejfi!ctive Web Security Management.

             The Department's Chief Information Officer (CIO) concurs with the findings and
             recommendations outlined within this repon. The Department noles enhancements in ils IT
             security posture in FY 11 including deployment of an enterprise wide vulnerability management
             capability. WC appreciatc the cQllaborarivc effon by thc OIG that has rcsu\[cd in rcmediating most of
             the critical deficiencies identified in this report.

             The Department looks tOl'\Vard to receiving the Commerce Inspector General's final repon.

             Please contact Tim Hurt, IT Security Compliance Officer, al (202) 482-4822, if you have any
             questions.




                                                               10
U.S. Department of Commerce                                      Final Report
Office of Inspector General                                  October 21, 2011




            cc:   Dr. Steve Landefeld, BEA
                  Eric L. Hirschhorn, BIS
                  Dr. Robert M. Groves, U.S. Census Bureau
                  Dr. Patrick Gallagher, NIST
                  Dr. Jane Lubchenco, NOAA
                  Lawrence E. Strickling, NTIA
                  Bruce Borzino, NTIS
                  David Kappos, PTa




(1200000-117)




                                                     11
